                                 Closeout f o r M96090024


,       This case was opened on September 3, 1996, to address the complainant's1
    allegations of misconduct in science and engineering against the subject2 concerning
    their joint NSF grant (the grant).3 Specifically, the complainant alleged the subject
    deprived him of authorship credit, refused to share data, and falsified data.



       The complainant alleged he deserved co-authorship on a paper4 that resulted
    from research supported by the grant; the paper listed only the subject and his
    graduate student as authors. The complainant said that he should have been a co-
    author because he wrote programs for a data collection instrument and gave the
    subject a device to record field data.
        The subject explained that he and the complainant did not have a formal
    agreement about authorship, but perhaps they should have; the complainant did
    not include the subject on his publications that resulted from research carried out
    under the grant. The subject pointed out that the instrument the complainant said
    he wrote programs for came with much of its own software. He noted that he spent
    a lot of time learning to program the instrument himself. He said the complainant
    was not the only person to provide him with advice about the operation of the
    instrument. He provided the. instrument's programming guide to illustrate that
    many of the subject's and his programs were simply modifications of the
    manufacturer's programs. He acknowledged that the complainant wrote one
    independent program for the instrument, but neither he nor his graduate student
    had a copy of it or used it for the data presented in the paper.
       The subject agreed that the complainant constructed a device for collecting field
    data and gave them that device, but said that the data they collected with that
    device were not presented in the paper; they used a different, simpler device to
    collect the data that were published in the paper. The subject felt that his limited
    use of the complainant's device did not obligate him to include the complainant a s a
    co-author.
       OIG concludes the subject's publication practice was generally consistent with
    that of the complainant's. Within the complainant's and subject's mutual
    publication practices (e.g.,the complainant did not include the subject as co-author
    on his publications that were supported by the grant) the complainant's


       1 (footnote redacted).
       2 (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).



                                          Page 1 of 2                              M96-24
                              Closeout for M96090024


contribution of programs and a device would not require co-authorship. The
allegation of deprivation of authorship credit is not supported by the evidence.



   The complainant alleged the subject had not provided him with a copy of the
data generated under their grant and used in the paper. The subject believed his
graduate student had given the complainant copies of their research data, but did
not know until he received our letter that the complainant did not have all the data
(he said the complainant never contacted him to request such data). The subject
said he was willing to share his data if the complainant was also willing to share.
OIG advised the complainant and subject to work out a suitable arrangement to
share the data.


                                 DATAFALSIFICATION
    The complainant alleged the subject falsified data because two procedures      I

described in the paper for collecting data were not those actually used in the field,
and thus, the resulting data were not accurately represented in the paper. The
subject said the data were obtained using the procedure a s described in the paper,
and that this procedure is used by many scientists in the field. He noted the
complainant had collected some field data using a different procedure, but that
those data were not used in the paper. The subject provided his original data and
our review supported the subject's description. The evidence does not support a n
allegation of data falsification.


   This inquiry is closed and no further action will be taken on this case.


cc: IG, Integrity




                                      Page 2 of 2
